TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                 Fiscal Year 2012
                         Statutory Review of Restrictions
                         on Directly Contacting Taxpayers



                                       September 4, 2012

                              Reference Number: 2012-30-089




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                   HIGHLIGHTS


FISCAL YEAR 2012 STATUTORY                            of the authorized representative, on the initial or
REVIEW OF RESTRICTIONS ON                             subsequent contact in the collection
DIRECTLY CONTACTING TAXPAYERS                         investigation, 2) not sending copies of taxpayer
                                                      correspondence to the authorized
                                                      representative, or 3) not allowing enough time
Highlights                                            for the taxpayer to obtain a representative. In
                                                      addition, little documentation was found in
Final Report issued on                                managerial reviews indicating that managers
                                                      checked to ensure revenue officers were:
September 4, 2012                                     1) involving representatives in all case actions,
                                                      2) providing representatives a copy of all original
Highlights of Reference Number: 2012-30-089           correspondence sent to taxpayers, and
to the Internal Revenue Service Commissioner          3) allowing taxpayers sufficient time to obtain
for the Small Business/Self-Employed Division.        representation.
IMPACT ON TAXPAYERS                                   Although none of the taxpayers in the 14 cases
IRS employees are required to stop an interview       formally complained to the IRS or to TIGTA, the
if the taxpayer requests to consult with a            deviations can negatively affect the ability of
representative and may not bypass a                   taxpayers to obtain appropriate and effective
representative without supervisory approval.          representation during collection investigations.
Between October 2010 and September 2011,              Moreover, the deviations can increase the risk of
TIGTA’s Office of Investigations closed 19 direct     taxpayers seeking monetary damages from the
contact complaints involving IRS employees, of        IRS if its personnel are intentionally disregarding
which eight were disciplined or counseled for         the direct contact provisions of the Internal
their actions by IRS management officials.            Revenue Code.

WHY TIGTA DID THE AUDIT                               WHAT TIGTA RECOMMENDED

This audit was initiated because TIGTA is             TIGTA recommended that the Director, Field
required to annually report on the IRS’s              Collection, Small Business/Self-Employed
compliance with Internal Revenue Code                 Division, take steps to provide greater
Sections 7521(b)(2) and (c). The overall              assurance that the existing procedures designed
objective of this audit was to determine whether      to afford taxpayers their right to appropriate and
the IRS complied with the legal guidelines            effective representation are followed during the
addressing the direct contact of taxpayers and        field collection process.
their representatives.                                In their response to the report, IRS officials
                                                      agreed with the recommendation and plan to
WHAT TIGTA FOUND
                                                      take corrective actions. Specifically, the IRS
The IRS has a number of policies and                  plans to issue a memorandum reinforcing the
procedures in place to help ensure taxpayers          need for Collection Field function personnel to
are afforded the right to designate a qualified       follow the procedures and clarify the Internal
representative to act on their behalf in dealing      Revenue Manual to include guidance for
with IRS personnel in a variety of tax matters.       managers emphasizing the need to review for
However, TIGTA reviewed a statistical sample of       adherence to the procedures.
73 of 25,264 Small Business/Self-Employed
Division closed field collection investigations and
found that revenue officers were not always
involving representatives appropriately in some
key actions.
In the sample of 73 cases, TIGTA found that
14 revenue officers deviated from procedures
by: 1) contacting the taxpayer directly, instead
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 4, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Fiscal Year 2012 Statutory Review of Restrictions
                             on Directly Contacting Taxpayers (Audit # 201230007)

 This report presents the results of our review to determine if the Internal Revenue Service
 complied with legal guidelines addressing the direct contact of taxpayers and their
 representatives as set forth in Internal Revenue Code Sections 7521(b)(2) and (c). The Treasury
 Inspector General for Tax Administration is statutorily required to conduct this audit. This audit
 is conducted as part of our Fiscal Year 2012 Annual Audit Plan and addresses the major
 management challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendation. Please contact me at (202) 622-6510 if you have questions or
 Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (213) 894-4470 (Ext.128).
                                          Fiscal Year 2012 Statutory Review of
                                      Restrictions on Directly Contacting Taxpayers




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          An Array of Internal Controls Help Ensure Compliance
          With the Direct Contact Provisions of the Internal
          Revenue Code ............................................................................................... Page 3
          Managers Need to Provide Greater Assurance That
          Revenue Officers Are Involving Taxpayer Representatives
          in All Collection Actions .............................................................................. Page 6
                     Recommendation 1:.......................................................... Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Outcome Measure ................................................................ Page 14
          Appendix V – Previous Audit Reports Related to This Statutory
          Review .......................................................................................................... Page 15
          Appendix VI – Glossary of Terms ................................................................ Page 16
          Appendix VII – Management’s Response to the Draft Report ..................... Page 17
             Fiscal Year 2012 Statutory Review of
         Restrictions on Directly Contacting Taxpayers




                Abbreviations

ICS       Integrated Collection System
IDRS      Integrated Data Retrieval System
I.R.C.    Internal Revenue Code
IRM       Internal Revenue Manual
IRS       Internal Revenue Service
POA       Power of Attorney
SB/SE     Small Business/Self-Employed
TIGTA     Treasury Inspector General for Tax Administration
                                    Fiscal Year 2012 Statutory Review of
                                Restrictions on Directly Contacting Taxpayers




                                            Background

Internal Revenue Service (IRS) records show that, in Fiscal Year 2011, nearly 1.8 million
individual taxpayers exercised their right to grant power of attorney (POA) to an individual to act
on their behalf in dealing with the IRS in a variety of tax matters. These tax matters could have
included preparing and filing documents for the taxpayer, communicating and corresponding
with the IRS for the taxpayer, and representing taxpayers during an audit or the collection
process. Qualified representatives are typically required to be attorneys, certified public
accountants, or enrolled agents, although other individuals can represent taxpayers before the
IRS under certain circumstances. To designate POA authority to a representative, taxpayers file
Form 2848, Power of Attorney and Declaration of Representative, with the IRS. Once received
and validated, the IRS records the POA in its Centralized Authorization File1 system, where it is
linked to other automated information systems that are accessed and used by IRS personnel to
identify authorized representatives.
Identifying the authorized representative during a tax matter is critical for IRS personnel because
the Internal Revenue Code (I.R.C.) prohibits disclosure of tax return information to third parties
unless the taxpayer has authorized the IRS to make the disclosure. In addition, the direct contact
provisions of I.R.C. Section (§) 7521 enacted in 1988 as part of the Omnibus Taxpayer Bill of
Rights2 generally prohibit IRS personnel from bypassing a qualified representative once a
taxpayer authorizes one to act on his or her behalf and informs the IRS of that authorization. The
direct contact provisions also require IRS personnel to:
       Stop a taxpayer interview whenever a taxpayer requests to consult with a representative.
       Obtain their immediate supervisor’s approval to contact the taxpayer instead of the
        representative if the representative is responsible for unreasonably delaying the
        completion of an audit or investigation.
Congress, through the IRS Restructuring and Reform Act of 1998,3 directed the IRS to revise
Publication 1, Your Rights as a Taxpayer, to better inform taxpayers of these rights. In addition,
this act requires the Treasury Inspector General for Tax Administration (TIGTA) to annually
evaluate the IRS’s compliance with the direct contact provisions.
A taxpayer can file a civil suit seeking monetary damages against the IRS if an IRS employee
intentionally disregards these provisions by denying a taxpayer the right to appropriate
representation.
1
  See Appendix VI for a glossary of terms.
2
  Pub. L. No. 100-647, 102 Stat. 3730 (1988) (codified as amended in scattered sections of 5 U.S.C. and 26 U.S.C.).
3
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                            Page 1
                                   Fiscal Year 2012 Statutory Review of
                               Restrictions on Directly Contacting Taxpayers



As reported in prior years,4 neither we nor the IRS know with any degree of preciseness how
well the IRS is complying with direct contact provisions because its management information
systems are not capable of readily identifying situations where a taxpayer is denied the right to
appropriate representation. However, taxpayers’ complaints that allege IRS employees bypassed
their representatives and contacted them directly are tracked by the TIGTA Office of
Investigations on the Performance and Results Information System. During Fiscal Year 2011,
the Office of Investigations closed 19 direct contact complaints involving IRS employees, of
which eight were disciplined or counseled for their actions by IRS management officials.5
This review was performed at the IRS National Headquarters in the offices of the Commissioner
and the National Taxpayer Advocate in Washington, D.C., and the Small Business/
Self-Employed (SB/SE) Division Headquarters in New Carrollton, Maryland, during the period
September 2011 through April 2012. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




4
 See Appendix V for a list of previous audit reports related to this review.
5
 Revenue officers were involved in 12 of the 19 complaints and seven of the eight employees disciplined or
counseled.
                                                                                                             Page 2
                                   Fiscal Year 2012 Statutory Review of
                               Restrictions on Directly Contacting Taxpayers




                                     Results of Review

The IRS has a number of policies and procedures in place to help ensure taxpayers are afforded
the right to designate a qualified representative to act on their behalf in dealing with IRS
personnel in a variety of tax matters. However, we found that revenue officers are not always
involving representatives in some key actions, which may be negatively affecting the ability of
taxpayers to obtain appropriate and effective representation during the collection process.

An Array of Internal Controls Help Ensure Compliance With the Direct
Contact Provisions of the Internal Revenue Code
Ultimately, the IRS relies on its examiners and collectors to properly consider and protect
taxpayer rights when conducting audits and taking collection actions. To assist revenue officers
in meeting these responsibilities during the collection process, the IRS has an array of policies,
procedures, and techniques (internal controls) that are in line with the Government
Accountability Office’s Standards for Internal Control in the Federal Government.6
The IRS’s mission statement and supporting policy statements provide guidance nationwide to
IRS compliance and other personnel who have contact with taxpayers. Figure 1 provides an
example of IRS Policy Statement 5-2, which contains the core principles that underscore the
importance of protecting taxpayer rights as well as providing the public with quality, courteous,
and effective assistance in collecting unpaid taxes.




6
    Formerly the General Accounting Office, GAO/AIMD-00-21.3.1 (Nov. 1999).
                                                                                            Page 3
                                     Fiscal Year 2012 Statutory Review of
                                 Restrictions on Directly Contacting Taxpayers



                    Figure 1: Core Principles for Collecting Unpaid Taxes

                                   Excerpt From IRS Policy Statement 5-2

                Principles                                                 Description

     OVERARCHING PRINCIPLES                   All our decisions about collecting must be guided by these principles.
                                              To the extent that they are, we will succeed in our mission.

      SERVICE AND ASSISTANCE

   All taxpayers are entitled to courteous,   We will actively assist taxpayers who try to comply with the law and
    responsive, and effective service and     work to continually improve the quality of our systems and service to
     assistance in all their dealings with    meet the needs of our customers. All taxpayers, whether delinquent or
                 the Service.                 fully compliant, are entitled to prompt and professional service
                                              whenever they deal with Service employees.

           TAXPAYER RIGHTS

     We will observe taxpayers’ rights,       This affirms our commitment to observe both the spirit as well as the
    including their rights to privacy and     letter of all legal requirements, including the Taxpayer Bill of Rights I
      to fair and courteous treatment.        and II and the IRS Restructuring and Reform Act of 1998. Taxpayers
                                              will be protected from unauthorized disclosure of information.

              COMPLIANCE

    The public trust requires us to ensure    The public as a whole is our customer, not just delinquent taxpayers.
     that all taxpayers promptly file their   Our customers expect us to promote voluntary compliance by ensuring
    returns and pay the proper amount of      that all promptly pay their fair share.
     tax, regardless of the amount owed.

           CASE RESOLUTION

   While we will actively assist taxpayers    All taxpayers are required to pay by the due date of the return. From a
  to comply, we will also take appropriate    broad range of collecting tools, employees will select the one(s) most
   enforcement actions when warranted to      appropriate for each case. Case resolution, including actions such as
    resolve the delinquency. To resolve a     lien, levy, seizure of assets, installment agreement, offer in
   case, good judgment is needed to make      compromise, substitute for return, summons, and IRC 6020(b), are
      sound decisions on the appropriate      important elements of an effective compliance program. When it is
                action needed.                appropriate to take such actions, it should be done promptly, yet
                                              judiciously, and based on the facts of each case.

Source: Excerpt from IRS Policy Statement 5-2 – Collecting Principles.

These core principles are critical to setting the appropriate tone for agency activities and
interactions with taxpayers and their representatives, especially because documentation of the
interactions is controlled by the IRS employee. To supplement agency-level mission and policy

                                                                                                              Page 4
                               Fiscal Year 2012 Statutory Review of
                           Restrictions on Directly Contacting Taxpayers



statements, the IRS uses, and periodically updates, the Internal Revenue Manual (IRM) and
numerous taxpayer publications. Both the IRM and taxpayer publications are available online
and are designed to provide guidance nationwide to IRS personnel and taxpayers.

The IRM and taxpayer publications are important control components
From a control perspective, both the IRM and taxpayer publications are important because they
provide detailed explanations and instructions of the statutory, business, and administrative
procedures the IRS follows in administering the tax laws, including the direct contact provisions
of I.R.C. §§ 7521(b)(2) and (c). For example, the IRS uses Publication 1 as the main document
to keep taxpayers informed of their rights and to explain the audit, collection, appeals, and refund
processes. Publication 1 also includes a contact number for the TIGTA, where suspected
violations of the direct contact provisions and other potential misconduct or abuse by IRS
employees can be reported. In addition, Publication 1 includes the following information
concerning taxpayers’ rights to be represented at interviews with the IRS and to suspend an
interview pursuant to I.R.C. § 7521(b)(2).
   You may either represent yourself or, with proper written authorization, have someone else
   represent you in your place. Your representative must be a person allowed to practice before
   the IRS, such as an attorney, certified public accountant, or enrolled agent. If you are in an
   interview and ask to consult such a person, then we must stop and reschedule the interview in
   most cases.
The IRS has also included information on these rights in other publications:
      Publication 17, Your Federal Income Tax.
      Publication 334, Tax Guide for Small Business.
      Publication 556, Examination of Returns, Appeal Rights, and Claims for Refund.
      Publication 3498, The Examination Process.
In addition, the IRS uses Publication 947, Practice Before the IRS and Power of Attorney, to
inform taxpayers of their representatives’ responsibilities and to notify taxpayers that the IRS has
the authority to bypass representatives that are uncooperative. Specifically, Publication 947
states, “After a valid power of attorney is filed, the IRS will recognize your representative.
However, if it appears the representative is responsible for unreasonably delaying or hindering
the prompt disposition of an IRS matter by failing to furnish, after repeated requests,
non-privileged information, the IRS can contact you directly.”
A number of internal controls are also in place at the operational level
At the operational level, the first-line managers over revenue officers are a key control because
they are responsible for ensuring that the personnel they supervise follow procedures and that
their work meets acceptable standards. To assist managers in ensuring procedures are followed
                                                                                             Page 5
                                     Fiscal Year 2012 Statutory Review of
                                 Restrictions on Directly Contacting Taxpayers



and standards are met, the IRM requires managers to conduct reviews over the work of the
personnel they supervise, both while it is in process and after it is completed. These control
techniques, as we have previously reported, help identify problems so prompt corrective actions
can be taken.
In response to our reports over the years, the IRS has taken a number of steps to reinforce upon
first-line managers the need to ensure the personnel they supervise are adhering to the direct
contact provisions. For example, the SB/SE Division issued a memorandum to its first-line
managers in Fiscal Years 2001 and 2002 directing them to “take whatever steps are necessary
(including discussion in group meetings, case reviews, workload reviews, on-the-job visits, and
taxpayer/POA [Power of Attorney] inquiries) to ensure these requirements [the requirements
mandated by I.R.C. §§ 7521(b)(2) and (c)] are understood and followed by employees.” In
August 2006, April 2010, and May 2010, the IRS updated the IRM7 to include specific directions
for SB/SE Division managers in its Collection and Examination functions on how to ensure
compliance with the direct contact provisions of I.R.C. §§ 7521(b)(2) and (c). The guidance
provided in April 2010 directed that initial contact for audits must be made with an authorized
representative.
Besides first-line management reviews, quality measurement staffs annually review hundreds of
closed enforcement cases to measure and evaluate the quality of audits and collection actions,
communicate areas of concern to upper management, identify potential training needs, and
improve work processes. While these reviews do not specifically address adherence to the direct
contact provisions, they do assess the degree to which enforcement personnel are complying with
procedures for protecting taxpayer rights. For Fiscal Year 2011, the SB/SE Division’s quality
measurement staff reported that revenue officers complied with the procedures for protecting
taxpayer rights in 85 percent of the cases reviewed for the Collection Field function.
In addition to reviews by first-line managers and the quality measurement staffs, mid-level
managers may evaluate ongoing work in open audits and collection cases during their
operational reviews. Operational reviews are required to be performed at least once a year to
ensure work is being done in conformance with procedures. These processes serve as a quality
control by identifying managerial, technical, and procedural problems and providing a basis for
corrective actions.

Managers Need to Provide Greater Assurance That Revenue Officers
Are Involving Taxpayer Representatives in All Collection Actions
We reviewed a statistical sample of 73 of the 25,264 Collection Field function cases that were
closed between April 1 and September 30, 2011, for taxpayers with a POA. We found in
14 (19.2 percent) of the 73 cases that the revenue officer did not follow the procedures that help

7
    IRM §§ 1.4.50.5.12 (Jun. 16, 2011) and 1.4.40.3.8.2 (May 19, 2010).
                                                                                            Page 6
                                   Fiscal Year 2012 Statutory Review of
                               Restrictions on Directly Contacting Taxpayers



ensure compliance with the direct contact provisions of the I.R.C. When the sample results are
projected to the population, we estimate that the deviations may have negatively affected the
ability of 4,845 taxpayers8 to obtain appropriate and effective representation. In considering the
significance of the deviations, it is important to recognize that the representative was involved in
the vast majority of the contacts the revenue officer made in the cases we reviewed.
Nevertheless, the deviations still leave the IRS vulnerable to a greater risk of taxpayers seeking
to recover monetary damages from the IRS if they believe its personnel are intentionally
disregarding the direct contact provisions of the I.R.C.
During our case reviews, we evaluated the documentation recorded systemically and by revenue
officers in the Integrated Collection System (ICS) to make our judgments about each case. We
also compared the POA information in the ICS to the POA information the IRS maintains in
each taxpayer account on the Integrated Data Retrieval System (IDRS) and then categorized the
deviations found in the 14 cases into the following four areas.9
    1. Collection investigations were initiated directly with the taxpayer instead of with the
       representative designated on the POA in the ICS or IDRS (seven cases). In three of these
       cases, the revenue officer made on-site visits to the taxpayers’ residences without
       involving the representatives and left contact information and IRS publications for the
       taxpayers in sealed envelopes with neighbors or relatives.
    2. During the collection investigation, contact was made directly with the taxpayer without
       involving the representative designated on the POA in the ICS or IDRS (five cases). For
       example, *****************************1****************************
       **************************************1*********************************
       ****************1****************
    3. *****************************************1***************************
       ******************1***************************. Revenue officer procedures
       specify that taxpayers should be allowed at least 10 business days to secure
       representation once a request is made to consult with a representative. *******1*****
       ************************************1**********************************
       ***********************************1******************************.
    4. Copies of collection letters and other correspondence were not provided to the
       representative designated on the POA in the ICS or IDRS (four cases). The IRS policy is
       to send all original correspondence to the taxpayer and provide a copy to the taxpayer’s
       authorized representative unless the taxpayer has indicated otherwise on Form 2848.
       *********************************1************************************

8
  We are 95 percent confident that the number of taxpayers in the population that may have been negatively affected
will be between 2,551 and 7,139.
9
  The taxpayers in these 14 cases did not formally complain to the IRS or to the TIGTA about the revenue officers’
actions.
                                                                                                           Page 7
                                       Fiscal Year 2012 Statutory Review of
                                   Restrictions on Directly Contacting Taxpayers



           *************************************1********************************
           ************************************1**********************************.
In addition to reviewing the ICS and the IDRS, we evaluated a judgmental sample10 of
37 operational reviews that mid-level managers completed on SB/SE Division revenue officer
groups, along with the performance feedback and guidance first-line managers provided to the
revenue officers involved in the 14 cases above. Our results show that general taxpayer rights
were addressed in most of the 37 operational reviews by mid-level managers. However, the
importance of adhering to the procedures governing the direct contact provisions of the I.R.C.
was addressed in only four of the 37 mid-level reviews and by only one of the 14 first-line
managers through performance feedback.
For the 14 first-line managers, we requested the feedback and guidance they had provided to the
revenue officers through performance evaluations, case reviews, workload reviews, group
meetings, and field visits that addressed the importance of compliance with the direct contact
procedures. The IRS provided documentation from one manager and informed us that there was
no documentation for the other 13 managers that addressed the procedures on direct contact
provisions.
Consequently, we found little documentation in the reviews indicating that managers assessed
whether revenue officers were: 1) involving representatives in all case actions, 2) providing
representatives a copy of all original correspondence sent to taxpayers, and 3) allowing taxpayers
sufficient time to obtain representation. The TIGTA believes that managerial reviews over
revenue officers’ adherence to IRS procedures governing the direct contact provisions, and
documentation of such reviews, are important and need to be enhanced because they are the
IRS’s primary quality control mechanism.

Recommendation
Recommendation 1: The Director, Field Collection, SB/SE Division, should take steps to
provide greater assurance that the procedures designed to afford taxpayers their right to
appropriate and effective representation are followed during the field collection process.
           Management’s Response: IRS management agreed with this recommendation. The
           Director, Field Collection, SB/SE Division, will issue a memorandum reinforcing the
           need for Collection Field function personnel to follow procedures and afford taxpayers
           their right to appropriate and effective representation throughout the field collection
           process. In addition, the IRM will be clarified to include guidance that management
           should review for adherence to these procedures when conducting case reviews.



10
     A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 8
                                       Fiscal Year 2012 Statutory Review of
                                   Restrictions on Directly Contacting Taxpayers



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with legal
guidelines addressing the direct contact of taxpayers and their representatives as set forth in
I.R.C. §§ 7521(b)(2) and (c). To accomplish this objective, we:
I.         Determined if an IRS system and/or process has been implemented since our last review
           to identify those cases where taxpayers have requested to consult with a representative or
           where IRS employees bypassed a representative and directly contacted the taxpayer.
           A. Interviewed IRS management personnel in the SB/SE Division to identify whether
              the IRS has implemented a system to identify those cases where taxpayers have
              requested to consult with a representative or where IRS employees bypassed a
              representative and directly contacted the taxpayer.
           B. Reviewed a statistically valid random sample of 73 of 25,264 individual SB/SE
              Division field collection cases that were closed between April 1 and September 30,
              2011, for taxpayers who had a POA during the collection process to determine
              whether examiners were complying with the requirements of I.R.C. §§ 7521(b)(2)
              and (c). We selected a random sample because we wanted to project the number of cases
              with errors to the population.
                   We extracted the data from the ICS1 files maintained on the TIGTA’s Data Center
                    Warehouse.
                   We validated the field collection cases by comparing the sampled records to online
                    data and also included the comparison of POA information recorded on the ICS
                    and on the IDRS.
                   Our sample size was determined using a 95 percent confidence level, ± 5 percent
                    precision, and 5 percent expected error rate.
           C. Evaluated a judgmental sample2 of 37 operational reviews mid-level managers
              performed over SB/SE Division’s revenue officer groups along with the performance
              feedback and guidance first-line managers provided to the 14 revenue officers that
              had not followed the procedures that help ensure compliance with the direct contact
              provisions of I.R.C. §§ 7521(b)(2) and (c). Judgmental samples were used because
              we were trying to determine whether managers were addressing the direct contact

1
    See Appendix VI for a glossary of terms.
2
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 9
                              Fiscal Year 2012 Statutory Review of
                          Restrictions on Directly Contacting Taxpayers



          provisions of the I.R.C. in their reviews and had not intended to project results to the
          populations.
II.    Determined if any systems or processes have been modified since our last review to track
       taxpayer complaints relating to IRS violations of I.R.C. §§ 7521(b)(2) and (c).
       A. Interviewed IRS personnel responsible for the Taxpayer Advocate Management
          Information System and the e-trak System to determine if these two systems have
          been modified to track taxpayer complaints relating to IRS violations of I.R.C.
          §§ 7521(b)(2) and (c).
       B. Interviewed IRS management personnel from the Employee Conduct and Compliance
          Office to determine if the system (i.e., e-trak) they are using is capable of tracking
          and reporting the direct contact complaints/allegation received by the Employee
          Conduct and Compliance Office.
       C. Interviewed IRS management personnel in the Taxpayer Advocate Service to
          determine if the IRS plans to implement a system or process for tracking complaints
          arising from violations of I.R.C. §§ 7521(b)(2) and (c).
       D. Reviewed the TIGTA Office of Investigation’s complaint and investigation cases that
          were closed in Fiscal Year 2011 and tracked on the Performance and Results
          Information System to determine the validity of taxpayer complaints and what actions
          the IRS had taken as a result, as well as the potential number of taxpayers who may
          have had their rights and entitlements infringed upon.
III.   Obtained and reviewed information on the actions taken by the IRS in response to
       I.R.C. §§ 7521(b)(2) and (c) to determine the impact of this code section on IRS
       programs.
       A. Reviewed the prior TIGTA reports to identify recommendations and the IRS’s
          planned corrective action.
       B. Conducted searches on the IRS intranet to identify guidance to IRS employees for
          meeting the direct contact provisions and determine the impact on the IRS programs.
       C. Researched IRS.gov to identify how the IRS informs taxpayers of the IRS’s
          prohibition on directly contacting taxpayers and evaluated whether it provides
          adequate guidance for taxpayers and their representatives.




                                                                                           Page 10
                               Fiscal Year 2012 Statutory Review of
                           Restrictions on Directly Contacting Taxpayers



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective:
      The agency-level internal control activities:
       a. The IRS’s mission statement and supporting policy statements along with the IRM
          guidelines provide guidance to IRS employees to ensure compliance with direct
          contact provisions.
       b. Numerous publications keep taxpayers informed of their rights.
      The operational-level internal control activities: the first-line managers are responsible
       for ensuring the personnel they supervise follow procedures and that their work meets
       acceptable standards. They will need to review the work of the personnel they supervise,
       both while it is in process and after it is completed, which will help identify problems so
       prompt corrective actions, if needed, can be taken.




                                                                                          Page 11
                             Fiscal Year 2012 Statutory Review of
                         Restrictions on Directly Contacting Taxpayers



                                                                            Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Alan Lund, Audit Manager
Jean Kao, Lead Auditor
Debra Mason, Senior Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                    Page 12
                             Fiscal Year 2012 Statutory Review of
                         Restrictions on Directly Contacting Taxpayers



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Director, Communications, Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CSO
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       National Taxpayer Advocate TA




                                                                                    Page 13
                                   Fiscal Year 2012 Statutory Review of
                               Restrictions on Directly Contacting Taxpayers



                                                                                              Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 4,845 taxpayers where the revenue officers
    may not have appropriately involved the POA during the collection investigation (see
    page 6).

Methodology Used to Measure the Reported Benefit:
We calculated our outcome for the field collection exception cases using the following
methodology:
       We selected a statistical sample of 73 of the 25,264 Collection Field function cases that
        were closed between April 1 and September 30, 2011, for taxpayers with a POA. Our
        sample size was determined using a 95 percent confidence level, ± 5 percent precision,
        and 5 percent expected error rate.
       We identified 14 cases where the revenue officer did not follow the procedures that help
        ensure compliance with the direct contact provisions of I.R.C. §§ 7521(b)(2) and (c).
       Based on our sample error rate (14/73), we calculated the number of taxpayers in the
        population that may have had their ability to obtain appropriate and effective
        representation negatively affected: [25,264 x (14/73) = 4,845].1




1
 We are 95 percent confident that the number of taxpayers in the population that may have been negatively affected
will be between 2,551 and 7,139.
                                                                                                         Page 14
                             Fiscal Year 2012 Statutory Review of
                         Restrictions on Directly Contacting Taxpayers



                                                                             Appendix V

                 Previous Audit Reports Related to
                       This Statutory Review

TIGTA, Ref. No. 1999-10-076, The Internal Revenue Service Needs to Enhance Guidance on
and Monitoring of Compliance With Procedures for Directly Contacting Taxpayers and Their
Representatives (Sept. 1999).
TIGTA, Ref. No. 2000-10-132, Letter Report: Improvements Have Been Implemented for
Directly Contacting Taxpayers and Their Representatives (Sept. 2000).
TIGTA, Ref. No, 2011-10-116, Letter Report: The Internal Revenue Service Has Not
Implemented a Process to Monitor Compliance With Direct Contact Provisions (Jul. 2001).
TIGTA, Ref. No. 2002-40-177, The Internal Revenue Service Cannot Monitor Its Compliance
With the Direct Contact Provisions (Sept. 2002).
TIGTA, Ref. No. 2003-40-131, Fiscal Year 2003 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Jun. 2003).
TIGTA, Ref. No. 2004-40-059, Fiscal Year 2004 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Feb. 2004).
TIGTA, Ref. No. 2005-40-040, Fiscal Year 2005 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Feb. 2005).
TIGTA, Ref. No. 2006-40-136, Fiscal Year 2006 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Aug. 2006).
TIGTA, Ref. No. 2007-40-118, Fiscal Year 2007 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Jul. 2007).
TIGTA, Ref. No. 2008-40-090, Fiscal Year 2008 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Mar. 2008).
TIGTA, Ref. No. 2009-30-054, Fiscal Year 2009 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Mar. 2009).
TIGTA, Ref. No. 2010-30-060, Fiscal Year 2010 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Jun. 2010).
TIGTA, Ref. No. 2011-30-090, Fiscal Year 2011 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Sept. 2011).




                                                                                     Page 15
                               Fiscal Year 2012 Statutory Review of
                           Restrictions on Directly Contacting Taxpayers



                                                                                   Appendix VI


                                Glossary of Terms

Centralized Authorization File – A computerized system of records which houses
authorization information from both powers of attorney and tax information authorizations.
Collection Field function – The IRS function consisting of revenue officers who handle
personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
e-trak System – An IRS web-based data tracking application that enables meaningful data
management, tracking, retrieval, and reporting.
Integrated Collection System (ICS) – An information management system designed to improve
revenue collections by providing revenue officers access to the most current taxpayer
information, while in the field, using laptop computers for quicker case resolution and improved
customer service.
Integrated Data Retrieval System (IDRS) – IRS computer system capable of retrieving or
updating stored information. It works in conjunction with a taxpayer’s account records.
Performance and Results Information System – A management information system that
provides the TIGTA with the ability to manage complaints received and investigations initiated.
Revenue Officer – A Collection Field function employee who contacts taxpayers to resolve
collection matters that have not been resolved through previous notices or phone calls.
Taxpayer Advocate Management Information System – A database of the Taxpayer
Advocate Service that is exclusively dedicated to the recordation, control, and processing of
Taxpayer Advocate Service taxpayer cases and to the capturing and analysis of core tax issues,
laws, policies, and internal IRS functional processes that are the sources of significant taxpayer
hardship and other critical problems.




                                                                                             Page 16
             Fiscal Year 2012 Statutory Review of
         Restrictions on Directly Contacting Taxpayers



                                                  Appendix VII


Management’s Response to the Draft Report




                                                         Page 17
    Fiscal Year 2012 Statutory Review of
Restrictions on Directly Contacting Taxpayers




                                                Page 18
